No. 19-624

 

IN THE

Supreme Court of the Anited States

MARK GRAF AND JOHN USTICH,

Petitioners,
v.
HYUNG SEOK KOH,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,079 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 16, 2019.

Colin Casey _

Wilson-Epes Printing Co., Inc.
